                       WORKING TOWARD JOBS


                    The Michigan Opporlunity and Skills Training
                                 (MOST) Program




       i.1\VICE$'




'0


     lti'd3a


OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALVA TION AND INSPECTIONS

                                                                   MAY 1990
             The Michigan Opportunity and Skills Training
                           (MOST) Program




                           Richard P. Kusserow

                           INSPECTOR GENERAL





OEI-12-89-01325
                                                            MAY 1990
                                 . . . .. .. .. .. .. .. .. .. ... ... ... ...... ... .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... . .
                                  ..................................




INTRODUCTION                                                                                                                                                                                         . ., 1





PROGRAM PROFILE.                                                                                                                                                                                     . . . 2


           THE STATE OF MICHIGAN                                                                                                                                                                              . 2



           THE MICHIGAN AFDC PROGRAM.                                                                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


           THE MICHIGAN AFDC WORK PROGRAM.                                                                                   . . . . . . . . . . . . . . . . . . . . . . . 2


                   General Background. .
                   Administrative Issues                                                                                                                                                                      . 3



                   Participation Issues. .                                                                                                                                                                    . 5



                   Program Activities                                                                                                                                                                . . . 5


Appendix A
           OVERVIEW STATEMENT.                                                                                                                                                                        A-

Appendix B

     SAMPLE DOCUMENTS                                                                                                                                                                                . B­
              :::~~~                                                                                                               ~~~~                             :::::::::::             .....
                                                                                                                                                                                             . ....
                                                                                                                                                                                               ....
                                                                                                                                                                            ::::::::: ::::::::::




             This technical report is par of a series of
             profies on the Aid to Famlies with Dependent
             Children (AFC) work progrs parcipating
             in the Working Toward JOBS project.

             Each profie  begis with a categorized
             description of the subject AFC work program,
             which is based on mail guides submitted by the
             progr. Appendix A includes an overvew
             statement wrtten by the program manager. It
             describes the program, its goals, philosophy and
             lessons leared. Appendix B is a sample of
             documents used to conduct the program. Each
              progr admnistrator was asked to submit
              sample documents which they felt would be
              useful to States and counties developing JOBS


                                                                                                                                                   fr
                                                                                                                                                                                            :::IIi




                                                 Crion fo tlssmdy was done
              Apri to September                                                   of 1989. The information in
                                                                                                                                                                                            ::!I::::'




              JOBS legal and regulatory requirments. ttt
                                                                                                                                                                           .I
              Where possible, we have noted the changes the                                                                                                                                 !i:i:i!i::::


                                                                                       rs anricipated at the rime
                                 ":a



                                                                                                                                                                                             lill1'
           :I::::::::::::::I:::::::::::                         :::::::::I::I ::::Iltt::::::::::::::I:t:::::::::I::::::::::::t:I:::::l:t::::::::::::::::: :::::I:::::
                                   ::::::::::::::I::::::I:::::::::::::




Michigan                                                                                                                  INTRODUCTION
__I

THE STATE OF          MICHIGAN

              Population: 9, 240, 000
              Main Industres: manufactung, tourism , and agrculture
              Unemployment rate for the first quarer of 1989: 7. 2 percent
              Median income for a famly of four: $36, 088
              Number of people living below the poverty line: 1, 339, 800 (14. 5 percent)



THE MICHIGAN AFDC PROGRAM

              For Fiscal Year (FY) 1988:

              Total Cost: $34 381 653

              Federal share: $20, 155, 116;   State share $14 226, 537

              AFC cases: 212 686

              159, 514 are in urban areas; 53, 172 are in rural

              Client descrptors:
                                average age: 31.4

                               average length of spell on AFC:       37. 8 months

              Case closures: 94 020


THE MICHIGAN AFDC WORK PROGRAM


General Background

Name:         Michigan Opportnity and Skils Traiing (MOST) Program

Operating Since: 
       April 1 , 1984

Philosophy:        The focus of the MOST program is reflected in their motto, " Seize the
              Opportnity. " The purose is to provide employable welfare recipients with the
              opportnities to become self-supportng and independent. The goal of the
              program is to enable parcipants to become self-supportg by assisting them to
              prepare for, seek , obtain and retan unsubsidized employment. The MOST
              program is designed to provide individuals with the servces and assistance which
              would enable them to become competitive in the labor market.




Michigan                                           PROGRAM PROFilE
Program Administrator:
                 Robert D. Cecil

                 Director, Bureau of Employment Services
                 Michigan Deparment of Social Services
                   O. Box 30037

                 Lansing, Michigan 48909

                 (517) 373- 7382

Administrative Issues

Structure:           Admnistered by the Michigan Deparent of Social Services (DSS). The
                 MOST progr operates in each of the State s 83 counties. At the beginning of
                 each fiscal year, local offices submit to the State offce their local office MOST
                 plan. Withn the parameters of the State policy, local offces are granted
                 flexibilty in the design and operation of their MOST programs. This flexibility
                 enables each local office to design a program consistent with the needs of their
                 local labor market. Each local offce receives an annual allocation to purchase
                 services. Local offces contract for the purchase of a varety of specific services
                 tailored to meet their client s specific needs.

Funding:            Program funds in FY 1988 totalled: $35, 180, 823. Transportation funds funded
                 by AFC tota $8, 004 088. Day car expenditure information is not available.

Staff:           There are 378 full- time equivalent position services workers in local offces who
                  provide dict services to clients. These positions are all filled with MOST case
                  managers. There ar 37. 8 full- time equivalent position supervisors.

Success Measurements: 
            Michigan measures MOST' s success by tracking the number of
                 clients having their AFC reduced or cases closed due to employment , monthly
                 AFC savings, and number ofAFDC served by the program.
Recordkeeping:            MOST keeps records on the following issues: welfare savings by
                 MOST component, welfare savings by MOST status, welfare savings, MOST
                 caseload status, closurs by MOST component, MOST cases closed during the
                 month, MOST status of clients, post closure assistance and payment status over
                 time, and demographics by age, race and grant amount.

Provision of Services: 
         The MOST program permts local and distrct offces to select
                 appropriate employment and trning services for parcipants based on needs
                 described and quantified in local offce MOST plans, which are reviewed and
                 approved by the centr office. Local offces may provide some services directly,
                 such as job search, conttact for them, or obtain them without cost in the
                 community. If a purchase-of-service conttact is used , a competitive bidding
                 procedure may be required. Contracting must be conducted in accordance to the


Michigan                                            PROGRAM PROFILE
               guidelines and standads established by the Michigan Deparent of Management
               and Budget, with additional criteria provided by DSS. An objective rating
               procedur is required when the competitive bidding process is utilized.

Outside Resources: 
       Michigan is working toward an integrated employment and training
               system designed to serve public assistance and non-assistance clients alike.

               Currently, State level staf provide technical assistance to local offces in
               developing and maintaining interagency linkages, while local level staff work out
               the system which best suits the needs of their offce. Three agencies which are
               widely used in providing services to MOST paricipants ar:

               1. The Job   Traig Parership Act (ITA) provides progrs of specialized
                   trng and remediation for parcipants though the 26 service delivery
                   areas of Michigan s JTA progr. The JTA focus is on trning for
                   available and futu jobs and the puruit of unsubsidized employment.

               2. The local community schools thoughout the S tate serve as a resource not
                   only for genera education but also vocational training and job clubs. The
                   Michigan Deparent of Education provides financial aid to local school
                   distrcts to target servce to MOST parcipants who have not attained a high
                   school education. These services are provided to MOST paricipants through
                   a non-fmancial interagency agrement.

               3. The Michigan Employment Securty Commssion              (MSC), the State
                   employment servces agency, serves as a major provider for Job
                   DevelopmentIlacement servces.

               Contracts for provision of services ar tyically performce- based contracts
               wrtten with private and public contractors to purhase servces when those
               servces are not locally available without cost to MOST parcipants. Formulas
               for payment and reimbursement ar clearly stated as are the achievement of
               expected outcomes. If expected outcomes ar not achieved, the full value of the
               contrct is not paid.

Evaluations:          The DSS conducted an evaluation , concluded in May 1989, which states "
               appears that: 1) the MOST program may have a positive impact (albeit not
               statisticaly significant) on welfar dependency, and 2) the MOST program has a
               statistically significant impact on a parcipant   s abilty to find and retain
               employment. "




Michigan                                         PROGRAM PROFILE
  Participation Issues



 Participant Descriptors: 
      As of August 1989, there were 205, 337 registrants. MOST
               requires parcipation of parents when the youngest child in the grant is at least 6
               months of age. In FY 1988 , 108, 242 people paricipated beyond registration.
                  181 live in urban areas. 27 055 live in rural areas. Average age is 29.
               average age of youngest child in grant is 6 months, average length of spell on
               AFDC is 9 months.

 Target Groups: 
             MOST tagets long- term welfare recipients who have received assistance
               for 2 years or more. They receive the following special services designed
               specifically for their needs: literacy tutorig, stress reduction , life skils training,
               early childhood development programs for parnts, substance abuse treatment
               motivational trning, and services to handicapped.

 Mandatory Activities/Sanctions:          All non-exempt AFC recipients must take par in
               registration, orientation and assessment. In FY 1988 4 471 sanctions were
               imposed on clients who did not comply with the mandatory activities.

 Volunteers:        All applicants for AFC, at the time of application , are given a brochure on
               the MOST program which tells them about the program and what it can do for
               them.

               The Deparent has provided the local offices with posters that may be placed in
               the waiting rooms to apprise clients of the program s existence. There are other
               brochures, including one called " Mothers at Work " available for use in
               recruitment.

Employment Placements:          There were 15 448 full- time placements resulting in the
               closure of an AFC case in calendar year 1988. Slightly less than 30 percent of
               parcipants whose AFC case was closed due to employment in FY 1988 have
               retued to AFC.



Program Activities

Models:          MOST considers job club and individual job search to be the most cost effective
               of its program activities. One such job club is described below.

               We asked each of the progrs profied to select and describe model practices
               and procedures. MOST has provided information on three of the local office
               programs which help meet State program goals.



Michigan                                             PROGRAM PROFILE
       Kent County Job Club

       The Kent County DSS MOST program is built around their job club. Paricipants
       spend the fIrst two weeks inventorying their past job skils and abilities, exploring
       job interests, learning job-seeking techniques , overcoming any baniers to
       program paricipation and beginning to develop employer lists. Strct attendance
       and punctuality standards are imposed during this intensive instructional phase.
       The next three weeks are used to further develop job leads, telephone potential
       employers to arange interviews, go on interviews and, for some, accept jobs.
       The job club maintains a 35- 50 percent obtaned employment rate.

       Those not employed afer completing job club, as well as those excused from job
       club due to emotional problems are assigned to a week long education/vocational
       assessment component provided by the Grad Rapids Community Schools.
       Assessment includes testing of skils, academic abilties, aptitude and
       achievement and the identifIcation of physical and emotional barers.

       Assessment results are tured over to an employment development plan
       counselor, a function funded by contract with Grand Rapids Area Employment
       and Training Council (GRATC). The counselor fIrst determines if a registrant
       goals are consistent with his or her education and skils. An employability plan is
       then developed in cooperation with the registrant. Kent DSS receives a copy of
       the plan to assist in assignment and progress monitoring.

       Registrants lackig job skills ar referrd to GRATC for training using ITPA
       funds. Women with low self-esteem are referrd to a special3-week program
       called " Women in Relationship, " designed to help them develop happier and
       healthier life-styles and relationships.

       Hospital Based Training in Medical Fields

       In the Detroit Metropolita ara, MOST sponsors parcipants in training
       progrs with area hospitas, pharacies and nursing homes. One of the most
       successful of such progrs is run by the Willam Beaumont Hospital , in
       conjunction with the Academy of Health Careers. Since there is a high demand
       for pharacy technicians and phlebotomists (technicians who draw blood)
       specifIc trning is provided in these fIelds.

       The classroom porton of this trning is provided at the Academy, a medical
       career vocational school. Tuition for this trning is provided though the MOST
       progr. The practical hands-on clinical portion of the trining is conducted in
       the laboratories at Beaumont hospital. Durng their progrm training, clients
       receive no wages. Some of the progrm s grduates ar hired as Beaumont
       Hospital employees. All program graduates have the training and experience
       necessar to find jobs in these medical professional fields.


Michigan                                 PROGRAM PROFILE
              Women in Transition

              In 1987 DSS entered into a contract with Mid- Michigan Community College to
              provide an educational and training program for AFC single parents from Clare,
              Gladwin and Isabella Counties. " Women in Transition " is a three-semester
              training program that allows paricipants to gain work experience along with
              college credits. The fIrst semester is designed to enable them to upgrade basic
              skils in math , English and reading, as well as gain knowledge in basic life skils.
              The second and third semesters allow each paricipant to design an individualized
              currculum usually combining eight credits of on-campus academics related to the
              field of interest, and 12 hour per week of on-the-job traiing at a local business
              or industr. Successful completion of the progr results in grduation , a
              certficate of achievement, and dict link to employment.

Sequencing:           Figu 1 shows the genera sequence of activities followed by paricipants
              in the MOST program.

Program Activities Listing: 
     What follows is a listing of the general program activities the
              State MOST program requires local MOST programs provide. Parcipation
              figues are for FY 1988.




Michigan                                        PROGRAM PROFILE
Job Search
Activity:         To provide job-ready registrants with a strctured program of job leads and
                job-seekig skills development to enable them to test their employability in the
                labor market.

How Provided: 
          Job search may be conducted through individual , self- instrctional
                programs of skills learing or strctured group programs of classroom instrction
                Gob clubs) utilizing a currculum and regimen that aids registrants in seeking,
                obtaining, and retaining employment. Provided by contractors, public schools,
                MESC, profit and non- profit placement agencies.

Participants:           29, 907; especially appropriate for young parents 16- 24 years old and
                long- term recipients on assistance 31 of the last 60 months.


On-the-Job Training

Activity:         To provide an opportunity for MOST registrants to secure employment in an
                occupation requirng hands-on training. The training is done while the registrant
                is employed. The employer receives a subsidy, usually based upon the
                employee s rate of pay, to make up for the new employees training time, more
                than average supervsion and material loss.

How Provided:            Contractors, private/public vocational training agencies, private/public
                job placement agencies.

Partcipants:             671; appropriate for all.


Community Work Experience Program

Activity:         To provide clients with work experience opportnities to enable them to secure,
                maintan or upgrade job skills, to gain a better understandig
                employer-employee relationships, to develop good work habits, attitudes, and to
                gain recent work experience while performing useful public service. The
                parcipant is not considered an employee of DSS or the paricipating agency.

How Provided:           Public/private non- profit agencies under agrement with DSS. Work
                experiences are arged by MOST case managers in one-on-one meetings with
                parcipants.

Participants:             695; recommended for young parents and long- term recipients.




Michigan                                             PROGRAM PROFILE
Case Management
Activity:         The case manager s role is to serve as a managerlbroker of services to
                parcipants and their familes. The case managers functions include: assessing
                the problems and needs of the family; developing a plan identifying appropriate
                services to meet the paricipant s needs; aranging for services; monitoring the
                provision of services; evaluating the outcomes of the services provided; and
                assisting in the mobilizing of services in an integrated system in order to
                maximize the delivery of services to clients.

How Provided: 
         Through meetings with clients.

Participants:         All MOST parcipants are assigned a case manager.




Michigan                                         PROGRAM PROFILE
                                                                            Appendix A





STATE OF     MICHIGAN JOBS PROGRAM 07/01/89 to 09/30/90

Part I:

          The State of Michigan wil implement a JOBS progr on July 1 , 1989 accordig
          to this plan and following approval by the Secrta of the Deparent of Health
          and Hum Servces. The plan will be reviewed by the Michigan Job Training
          Coordiatig Council (MICC). A 60 day public comment period has been
          provided. Sec. 483(a)(1)(2).

          The State is authoried to admnister the JOBS progr under the Famly Support
          Act of 1988 (p.L. 100- 485), which expands and replaces authority curntly
          contaed in Title IV- A and the IV- C of the Social Securty Act. Sec.
          482(a)(D)(ii)(2).

          The JOBS program wil be admnistered at the State level by the Michigan
          Deparent of Social Services, hereafter referrd to as   the   Deparent, by
          integrting the resources ofthe ITA SDAs, Michigan Deparent of Labor
          (:MOL), and the Michigan Deparent of Education (MOE). The authority to
          operate the progr is delegated to the Deparent s local offces in the State
          83 counties. Each local offce, within the pareters of State and federa policy,
          wil mody/adapt its progr to the demands of its labor market and the needs of
          the community as may be arculated by the individual county s Social Services
          Boards.



A.   Name of Program, Program Purpose

          Michigan s JOBS progr is the Michigan Opportunity and Skills Training
          (MOST) Program. Operating as a JOBS program, the purose of the MOST
          Prgram is to assure that needy famlies with childrn obtan the education
          tring, supportve servces and employment that will assist and permt them     to
          avoid long-term welfare dependence. Sec. 481(a).




Michigan                                 OVERVIEW STATEMENT                            A.l
B.   Legislative Requirements

        1. Legislative and regulatory authority. 1) Famy Support Act of 1988, Public
            Law 100-485, Title II. 2) Social Security Act, Public Law 74- 71 as amended,
            Title IV-F. 3) FSA- IM- 89- 3, " Preliminar Information for States Interested
            in Implementing JOBS prior to Issuance of Federal Regulations, " Januar 19,
            1989.




            State plan. Pror to implementation of Michigan s JOBS progr, this plan
            of operation is to be approved by the Secretar of the Deparment of Health
            and Huma Services (DImS). Following approval of the initial plan, the
            State, in   accordce with regulations of the Secreta,   wil update   its plan for
            approval. Sec. 482(a).





        3. Prgram      Parcipation. Individuals determined to be nonexempt are required
            to   parcipate in education , trning or employment to the extent resources are
            available and appropriate child care is guarteed.    Sec. 201.


            In addition to continuing servces to other identifiable hard-to-serve
            populations, equal priority wil be placed on:


                    Famlies who have received ADC for any 36 months of the preceding
                    60 months, or applicants for ADC who have received such aid for any
                    36 of the 60 months immedately preceding the most recent month for
                    which application was made.

                    ADC famlies in which a custodial parnt is under age 24 and has not
                    completed high school , is not currently enrolled in high school or an
                    equivalent course, or who had little or no work experience in the
                    preceding year.

                    ADC famlies in which the youngest child is within 2 years of being
                    ineligible for ADC because of age.




 Michigan                                 OVERVIEW STATEMENT                              A-2
       4. Mandatory progr activities. The State curently has in place the
              prescrbed madatory progr activities of equal priority.


                    general education including basic and remedial education , high school
                    completion or equivalency;

                    Job skils or vocational education/ training;

                    Job readiness activities to help parcipants prepar for work;

                    Job development/placement. Sec. 482(d).


              The State also provides job club, individual job search , OJT under contract,
              post seconda education, CWEP, and Grat diversion (work
              supplementation).



       5. Community linages. The State assures that JOBS activities are coordiated
              with progrs under ITA and other community employment, education and
              tring progrs. Sec. 483(a). (I). Loal offces are encouraged to
              parcipate in core groups comprised of ITA, MESC, Deparent of
              Education and other progr providers to preview local plans and taget
              resoures to appropriate sub-populations.

              The priar     agencies servng MOST Program parcipants are local school
              systems, institutions of higher learing, Michigan Employment Security
              Commssion (MESC), the ITA Servce Delivery Areas (SDAs), and
              Community Action Agencies (CAAs). The goal in the State of Michigan is
              to intensify effort towars an integrted Employment Traning (ET)
              Program. The intent of this integrted effort is to provide equal access for all
              referrs to the system and a grater awarness for parcipants of the range of
              avaiable services.



           6. Performance standards. Each MOST Prgram component/activity addrsses
              specific outcomes and timetables for attainment. Systems are in place which
              now report the success of the varous components by achieved outcomes as
              well as the relative cost of service' delivery.




Michigan                                  OVERVIEW STATEMENT                              A-3
           Addtional system changes ar being planned to report both parcipation
           rates as required by the JOBS legislation and the degree to which the State is
           targeting and delivering services to priority groups.



       7. Local offce plans. The administrative rules for the Michigan Opportunity
           and Skils Traiing (MOST) program require each County Board of Social
           Services to develop a proposed MOST plan which documents the manner in
           which the local offces shal implement job clubs, employment, education
           and training, and community work experience progrms.

           The MOST plan is a comprehensive document which describes how State
           MOST policy will be implemented though local procedures. The plan
           reflects the input and efforts of the County Director, the Social Services
           Board, local MOST staf and other local employment and trning progr
           operators.

           The purose of the MOST plan is to identify the way MOST services are
           provided in conjunction with other community efforts. Therefore, the plan
           must be coordinated and integrated with other programs and services in the
           community.



       8. Non-Discriation Statement. Every prited             program publication ,forms.
           and visual aids al car   the discrnation disclaier which reads, "The
           Deparent of Social Servces wil not discrminate against any individual or
           group because of race, sex, religion , age, national origin, color, martal status,
           handicap or political beliefs.




Michigan                                 OVERVIEW STATEMENT                              A -4
Part II: PROGRAM OPERATIONS

A.   Participation Determination

           Durig the public assistance application process, the department's Assistance
           Payments (AP) unit identifies those individuals who are required to paricipate
        are exempt from MOST/JOBS paricipation. AP wil inform applicants for, and
        recipients of, Aid to Families with Dependent Children of the criteria for
        exemption from parcipation and provide other appropriate information with
        respect to such parcipation.

           AP inorms both exempt and non-exempt recipients of the opportunity to
           volunteer for parcipation and includes a descrption of how to enter the program.
           Sec. 482(c)(5).

        The exempt criteria which follow apply to ADC clients. Sec. 201(c).

               II or incapacitated.



               Needed in the home because of illess   or incapacity of   another member of
               the household.

           3. Parnt or other relative personally providing carfor a young child under
               age 1. In ADC-UP cases, this exemption applies to only one parent.

        4. Employed 30 or more hour a week.

               A child under age 16, or a child attending full- time, an elementar, secondar
               or vocational (technical) school.

               A woman who is in at least the second trmester of pregnancy.

               Age 60 years or older.

       Following AP determation non-exempt applicants and recipients and volunteers
       are then identified as potential parcipants in the MOST Program.

        Pror to refeIT to the MOST Services unit, the AP unit wil        all potential
                                                                         provide
       parcipants with information and other locally- produced handouts which explain
       the advantages and opportunities avaiable through MOST paricipation.




Michigan                                   OVERVIEW STATEMENT                                A-5
B.   Referral of Exempt and Non-exempt JOBS Participants to MOST Unit

        Referral of all potential parcipants to MOST wil be accomplished        using
        deparent forms and computer- generated documents.
        Information provided to the MOST unit includes names of case members,
        mandatory or volunteer status of case members, grant amount, income. Birth
        dates of mandatory parcipant(s), recent work experience, educational level , and
        other famly-specific information. Sec. 48#(b).



        Limted Parcipation. As resources wil        otherwise permt, the following
        parcipant activities may be limited to:


                     no more than 20 hours a week of parcipation wil be required of a
                     parent who- personally provides car of a child under 6 years of age,
                     when child care is guarteed. Sec. 201 (c)(ii)(II).

                     a custodial parent under 20 years of age who has not completed high
                     school wil be requird to parcipate in an education activity. Sec.
                     201(E) (ii) (III).

                     a parent under 20 wil be required to parcipate in training or work
                     activities when parcipation in education or Job Search is deemed
                     inappropriate.




C.   Orientation

        All non-exempt individuals and volunteers may receive individual or group
        orientation to the MOST Program. Potential parcipants        wil be informed of   the
        progr s education, employment, and training opportunities which are available.
           Supportve services including child care services, trnsportation , health care
           services and special clothing wil be discussed. Notice of the parcipant s rights
           and responsibilties, his/her obligations to the progr, right to an informal
           grevance proess , and the penalties for nonparcipation wil be explained.
           Sec.482( c )(2).

           Informtion wil be provided    to potential parcipants on the availabilty and
           location of child car. Assistace is available to help select appropriate child care
           services and to help purchase such services.



Michigan                                    OVERVIEW STATEMENT                              A -6
D.   Initial Assessment

        Individuals who are required to paricipate and volunteers wil be provided with
        an initial assessment. The initial assessment wil identify the paricipant
        educational , health , safety, child care, and other supportive services needs of the
        parcipant s family. The parcipant s skils, proficiencies, deficiencies, work
        history and level of employabilty wil also be identified. Sec. 482(b).

        On the basis of this initial assessment, an employabilty development plan (EDP)
        wil be prepared in consultation with the parcipant. The EDP may include the
        requirement to parcipate in a scheduled formal, program-specific assessment.




E.   Employabilty development plan (EDP)

        The local offce  wil assure that each parcipant has an EDP. The plan shall
        explain the services that wil be provided including child care and other
        supportive services as well as necessar activities which the parcipant wil
        accomplish. The plan shal reflect the preferences of the parcipant while setting
        fort an employment goal. The plan wil be constrcted to address both shon and
        long term goals. The plan wil provide for required plan changes, details of
        parcipant obligations and the penalties for noncompliance. Volunteers wil
        agai be informed that should they later fai to parcipate, their grants wil not be
         afected. Sec.    482(b)(B).

        Signatues of both the MOST worker and the paricipant wil verify that the
        parcipant is aware of and understands "the mutually developed plan for pursuing
         employabilty enhancement and subsequent employment. The plan wil be a
         mutualy derived, dynamic document that outlines agency and paricipant
        responsibilties leading to economic independence. Sec. 482(b)(B)(2).

         Case Management. Each local office wil retain the option of identifying a case
         manager for each parcipant s family. Sec. 482(b)(B)(3).




Michigan                                  OVERVIEW STATEMENT                                A­
F.   SelfInitiated Training

           The Deparent wil allow individuals to attend an institution of higher education
           or to enroll in a school or course of vocational or technical training if the
           following conditions are met:

               The individual attends an educational institution at least half-time.

               The individual makes satisfactory progress in such institution , school , or
               course.

               The individual is enrolled in an activity that is consistent with her
               employment goals.

           If the above conditions are met, the individual shall be allowed to pursue her
           education progr.




Michigan                                    OVERVIEW STATEMENT                                A.8
                              Appendix B





Michigan   SAMPLE DOCUMENTS          B-1
                               THE JOB SEEKER


MOULE VI, GEnllG JOB                              LEADS


YOU ARE YOUR BEST RESOURCE
FOR JOB LEADS.

YOU ARE SURROUNDED BY THE
PEOPLE WHO ARE YOUR OWN
PERSONAL RESOURCES TO

OBTAIN JOB LEADS.




             YOU NEED YOUR FRIENDS AND RELATIVES NOW.
             AND, THEY WANT TO HELP. THEY' RE JUST WAITING
             FOR YOU TO ASK.

            FORMER EMPLOYERS ARE A GOOD RESOURCE.

            FORMER CLASSMATES AND CO- WORKERS ARE A
            GOOD RESOURCE.

             COMPLETE THE FOLLOWING PAGES TO DEVELOP
             YOUR LISTS OF RESOURCES FOR JOB LEADS.




DSS Publication 525-6 (5/82)   The Department of Social Services wil not discriminate against any Individual or group Deeause
                               of race , sex. religion. age. national origin. color, marital status. nandlcap. or political Dellels.
                     ACQUAINTANCES AND FORMER CLASSMATES


To help you identify friends, acquaintances and former classmates, use the
following worksheet. They need not be your " best friends, " so long as you
know them well enough for them to remember you. Under each activity, list
as many friends and acquaintances as you can.

People I have in,rited to my house:




People who have invited me to their house:





People who belong to the same club as I do:





People I play or watch sports with:





People I know from my neighborhood:





People I send Christmas cards to:

                          L 1ST OF FORMR CO-WORKRS

This worksheet is provided to help you recall your past co-workers. Start
with your most recent job, and think back to each place where you have worked.
Include volunteer jobs as well as those for which you were paid. Include all
of your past jobs. To help you remember, ask yourself:

         Who was working there at the same time I was?"
         Who did I carpool with?"
         Who trained or helped me when I started working?"
         Who did I fill in for?"
        'Wo were my supervisors?"

As the names occur to you, write them down. As  long as the person is some-
one you knew at least by name, list that person s name even if you weren
best friends.
                TELLING PEOPLE WH YOU AR LOOKING FOR A JOB


Below are some ways of telling people you are looking for    work.

        ll soon graduate, so I' m   looking for a job.
     I have Q job, but I' m not too happy with it, so I' m looking for a

     different job.


     My compa.ny had a big cutback and I was laid off. so I' m looking for a

      job. "
     My kids are all in school now , so I' m looking for a job.


      I quit my last job because it didn t pay enough and    r10W I' m   having dif­

      ficulty finding another job.


        m working part-time now , but I need a full-time job.


      I just moved here and I' m looking for a job.


     I want to get off welfare so I' m looking for a job.
     Ny kids are grown now , so I' m looking for a job.

      I quit work when I got married, but now I' m looking for a job.


 ow write a sentence which best describes your situation:





Practice saying this statement to yourself or even aloud to see if it        sounds
natural. Change  it if necessary, until it does.
                             ASKING PEOPLE FOR HELP


Explain to people why you are asking them for help by pointing out what
is special about them.  This way you are letting each person know why he
or she may be of some help to you.

Below are some examples of ways to approach that special            person:
    You ve lived here all of your life and know almost everything that
   going on.
    You re always the first person to hear what s going on.
    You ve been working on the same type of job I' m looking for, so you
   probably know about job openings.

      knw you d help a relative. I need    your help.
    You   ve helped me with so may other things.
    You meet lots of people and hear what is going on.
   'You know better than anyone else what kinds of jobs are open in this
   field. "

      d like to work where you         re working. Do   you know who does the hiring?"
    Have you heard about any job openings that might be OK for me?"

    You know what kind of a worker I am, so you know better than anyone

   what kind of jobs I' d be interested in.
   'You know J;e pretty well and know how I get along with people.
   'You always seem to have good ideas. Maybe you can give me some job
   hints. "
          ve helped each other in the past.        m hoping you can help me now.


Fill in the following spaces with the name of a person who you will be ask­
ing for help.  then write in the k nd of statement that you will make to that
person. As in the previous exercise, repeat the statement aloud and then
change it, if necessary, until it sounds Datural for you.

   To a brother-in-law.       Name :
Statement:
   To former co-worker..       Name:
Statemet:
   To neiahbors.     Name:
Statemet:
   To persons in your same field of work.         Name:

Statement:

   To friends who are working.          Name:

Statement:

   To past or present    teamtes or club memers.           Name:

Statement:

ASKING PEOPLE FOR HELP:

  WHEN A FACE- TO- FACE REQUEST FOR HELP IS NOT
  POSSIBLE, THE REQUEST CAN BE MADE BY LETTER.

    GOOD EXAMPLE FOLLOWS:




    Dear Mary,


         How is everything with you and your family? Time has sure flown by

    since we worked together at ABC Company. I t seems only yesterday. I

    still remember the fun we had.


        As you know, when I left ABC I went to work for Acme. For the past
    three years, things have gone smoothly. Unfortunately, orders have
    fallen off and the plant is closing. I will need another job in two
    months.
        I remember that you had coffee with Judy from Personnel who always
    knows when there are any job openings. I' ll always rememer the help
    you gave me when I first started.

        I would like to get back into ABC in a job similar to what I had or

    one which could use some of the bookkeeping skills I learned at Acme.


           d appreciate any help you could give me on any job openings you

     know about at ABC. Do you or any of our old friends at work know of

     any openings outside of ABC that could use my skills?


           m enclosing a stamped, self-addressed envelope and several copies

     of my resume. Would you jot down any job leads that you know about.

     Aud. would you please give the personnel manager a copy of my resume?


         thanks for your help.





     Enclosures


                                                Sinc.erely,

           YELLOW PAGES LIST



Employer                        Phone No.

Notes:



Employer                        Phone No.

 otes :




Employer                        Phone No.

Notes:



Employer                        Phone No.

Notes:



Employer                        Phone No.

Notes:



Employer                        Phone No.

Notes:



Employer                        Phone No.

Notes:
THE MICHIGAN EMPLOYMENT SECURITY
COMMISSION (MESC)
The MESC is the public employment agency operated by the State of Michigan. The

Job Service division is the unit responsible for helping employers find qual­

ified employees. They maintain daily listings of available job vacancies. The

job vacancy lists include jobs which have been called in by employers. Once

these jobs are listed, they are available to anyone who has the necessary train­

ing and experience to qualify. Therefore, the competition for these jobs is

keen.
Job Service is the main referral agent for many of the larger business and

industrial firms in the state. Therefore for these jobs, you must apply dir­
ectly with MESC. Job Service offices are often located in the same building
where you apply for unemployment benefits.

To use the free services of MESC, you must complete their form    listing all the

jobs you have had and tell them the kind of jobs you want. It     is a good idea

to check back with them at least once a week to tell them that    you re still

looking for work. They may know of some new job openings when     you  call.

GOVERNMENT EMPLOYMENT
Most units of government (local, state and federal) hire a wide variety of
workers to fill both skilled and un killed positions. Usually the jobs go      to
those qualified as determined by testing.

One disadvantage with governent jobs is that many people apply, so the compe­

tition is keen.  Another disadvantage is that it takes a great deal of time from
application to job hire. If you are still interested, ask your worker for
information on how to apply


LOCAL SOURCES
Nearly every local Chamber of Commerce maintains a list of all local employers.
Their lists do not indicate job openings. However, these lists can be a helpful
tool in an employment search.


Some schools offer a placement service. This is most common in technical schools

and colleges, but some high schools also offer this service through the counsel­

ing section. Many of the jobs listed on their bulletin boards are part-t ime or
sumer jobs only.
You can also contact community organizations such as comunity centers, recre­
ation and social centers, etc. Ethnic programs or services, professional

organizations, bulletin boards in supermarkets, and community centers ar

other possibilities. You can probably think of others.


As you can see, getting job leads takes a lot of    work.Asking for the he 1 r 

others is a good idea, but even with all your friends, neighbors and re La t i VPS

 keeping their eyes and ears open, " you will still need to do a lot of tht.'

work yourself.

                                                                                                                                                                 -...
                                                                                                                                                                 -....
                                                                                                                              .:.::.:;.:.:.::.::.:::;::.::::::;::.::::;::.::.::::.:




                                   THE JOB SEEKER

MODULE II, THE JOB INTERVIEW




                                                                      TERV
JOB                                JOB




THE MOST IMPORTANT STEP IN GETTING A JOB. GETTING
JOB INTERVIEWS MEANS YOUR EARLIER JOB SEEKING
METHODS HAVE PAID OFF. YOU' VE GOT THIS FAR. HOW
YOU PREPARE FOR, AND CONDUCT YOURSELF IN THE IN-
TERv         MEAN THE DIFFERENCE BETWEEN GETTING
THE JOB OR NOT.


THE PURPOSE OF THE JOB INTERVIEW IS TO GIVE THE
EMPLOYER MORE INFORMATION. THE EMPLOYER NEEDS
THIS INFORMATION TO DECIDE IF YOU ARE THE BEST
PERSON FOR THE JOB AND IF YOU REALLY WANT THE JOB.

PREPARING FOR THE INTERVIEW
MOST EMPLOYERS ASK THE SAME KINDS OF QUESTIONS.
BY HAVING YOUR ANSWERS READY, YOU WILL BE AHEAD
OF THE GAME.


DSS Publication 525. 9   (5/82)	         The Department of Social Services   wil not discriminate against any Individual o.                        .n""
                                         of race. sex. religion. age, national origin, color. marital    status, handicap, or gn..'''''
Why did you leave your last jot,'?"


 I was let go because the company had to cut back on help.


 I t was     mutually agreed that I leave to find a job I would   enj oy more.


 I was hoping to get in at ABC, but they stopped taking applications.


 The job was supposed to be an electrician s helper, but it was down­

graded to general maintenance and at a lower rate of pay.



 'Wat kind of work have you done before?"


 I haven t had any paying jobs recently, however, I have helped out

at Park Elemtary School.    I helped set up their library. It was

good E:xperience. I learnd how to order and catalog books. I was

also in charge of the students while they were in the library.


 I was a clerk at Green s until I got married and since that            ci
have been a homemker responsible for maaging the househollo. I
think your store could use the skills I gained at Greens and the ones

I uoed in maaging a household.

 My application says laborer 
but I actually spent most of the time on
heavy equipment -- bulldozer, front-end loaders, backoes, and drag
lines. I also can run a chain saw, skid, and drive a truck.
 When would you be able to start work?"

      m anxious to start work; I could start tomorrow if you like.       When
would you want me to start   'l "

 I will need to give my current employer notice. I should give him
some time to find my replacement. Probably two weeks from today.

 Do you have a car?"

  No, but the bus stops right across the street.

  No, but I' vealready talked to Joe in your set-up department.         He will
 be glad to give me a ride.

  Yes, it is an old car but it runs good.
                   MY ANSWS TO INERVIEW QUESTIONS



'Wy did you apply with our company?"




'Tell me something about yourself.





I see you have children.





I see you haven t worked for a long time.





'Wat. ha      bee ' doing   since your last job?"
NOT ONLY DOES THE EMPLQYER ASK YOU QUESTIONS
FOR MORE INFORMATION, BUT HE OR SHE VvILl BE WATCH­
ING YOU TO SEE HOW YOU CONDUCT YOURSELF. THE
FOLLOWING SHOWS YOU WHAT THE EMPLOYER WILL BE
LOOKING FOR THROUGHOUT THE INTERVIEW:

     YOU ARE INVITED INTO THE INTERVIEWER' S ROOM. GO IN WITH CONFIDENCE.

     IF THE INTERVIEWER EXTENDS HIS OR HER HAND, RETURN A FIRM
     HANDSHAKE. REMAIN STANDING UNTIL YOU ARE ASKED TO SIT DOWN. THEN
     SIT UP STRAIGHT AND LOOK THE INTERVIEWER IN THE EYE.

     THERE IS A SHORT PERIOD OF SMALL TALK. THIS IS DONE TO PUT YOU AT
     EASE.

     THERE IS A seRIOUS EXCHANGE OF INFORMATION. THIS IS THE MAJOR PART
     OF THE INTERVIEW. QUESTIONS ARE ASKED BY THE INTERVIEWER TO OBTAIN
     ADDITIONAL INFORMATION. BEFORE THE CLOSE OF THE INTERVIEW THE
     INTERVIEWER WILL ALLOW YOU TO ASK QUESTIONS AND ADD ANYTHING YOU
     FEEL MAY HAVE BEEN OVERLOOKED.

     THE CLOSE OF THE INTERVIEW.


     AT THIS STEP THE INTERVIEWER IS SIGNALING YOU THAT THE INTERVIEW IS
     COMING TO AN END. AS SOON AS YOU ARE AWARE OF THESE CLUES, SAY
     SOMETHING LIKE, ' 'THANK YOU FOR YOUR TIME. I HOPE YOU WILL CONSIDER
     ME FOR THE JOB AND I HOPE TO HEAR FROM YOU SOON:'

     WHEN YOU RISE TO LEAVE , SHAKE HANDS WITH THE INTERVIEWER AND LEAVE
     IMMEDIATELY.



PRACTICE THE INTERVIEW

ROLE PLAY    ACTING OUT THE INTERVIEW IS A GOOD WAY TO BECOME COMFORTABLE IN
AN ACTUAL INTERVIEW. IT ALSO ALLOWS YOU, TO POLISH YOUR PRESENTATION. THE
BEST WAY TO DO THIS IS TO ROLE PLAY. HAVE A NEIGHBOR, FRIEND OR YOUR SPOUSE
PLAY THE PART OF THE INTERVIEWER WHILE YOU TAKE THE ROLE OF THE JOB

APPLICANT. MAKE THE PRACTICE AS REAL AS POSSIBLE.

ON THE NEXT PAGE ARE INSTRUCTIONS FOR DOING A ROLE PLAY AND CHECK LIST THAT
CAN BE USED BY THE " INTERVIEWER" TO RATE YOUR PRESENTATION.
                   RATING THE APPLICANT' S PERFORMCE

      Below rate the applicant s total performce. In     addition to
      how the applicant performed in answering questior.3, did he/she
      maintain eye contact, show enthusiasm and interest, speak
      clearly, and maintain composure?

      General Performnce:      poor         good        very good

        Strong Points




        Weak Po inta




HOPEFULLY, THE PREVIOUS EXERCISE WAS BOTH FUN
AND EDUCATIONAL. PRACTICE DOING INTERVIEWS UNTIL
YOU FEEL CONFIDENT ENOUGH TO DO THE REAL THING.

HERE ARE SOME ADDITIONAL POINTS TO REMEMBER IN
PREPARING FOR, AND TAKING PART IN, AN ACTUAL
INTERVIEW:

RESEARCH THE COMPANY
IN PREPARING FOR AN ACTUAL INTERVIEW , FIND OUT AS MUCH AS YOU CAN ABOUT THE
KINDS OF JOBS THEY HAVE AND WHERE YOU CAN BEST FIT IN. LEARN THE STARTING
PAY RANGES, BENEFITS , AND THE WORK SHIFTS. THE MORE YOU KNOW ABOUT THE
COMPANY , THE BETTER PREPARED YOU WILL BE TO TAKE PART IN THE INTERVIEW AND
DISCUSS SPECIFIC JOBS.

DRESS PROPERL Y

IN ALL JOB INTERVIEWS YOU MUST DRESS PROPERLY. YOUR CLOTHES SHOULD BE NEAT
AND CLEAN. YOUR SHOES SHOULD BE POLISHED. HAIR SHOULD BE CLEAN AND NEATLY
TRIMMED. MAKEUP , IF USED , SHOULD E APPLIED LIGHTLY.

YOUR PERSONAL APPEARANCE SHOULD MAKE A GOOD IMPRESSION ON THE EMPLOYER.
                  '?          /?             ~~~

                              FOLLOW- UP TO THE INTERVIEW


WITHIN A DAY OR TWO AFTER THE INTERVIEW , YOU SHOULD SEND THE INTERVIEWER
A THANK YOU NOTE. THIS SHOULD BE A   HANDWRITTEN NOTE THAT THANKS THE
INTERVIEWER FOR THE TIME , COURTESY AND INTEREST SHOWN YOU DURING THE
INTERVIEW.

SENDING A THANK YOU NOTE IS A MUST. THE NOTE TELLS THE EMPLOYER THAT YOU'
STILL INTERESTED. YOUR NOTE KEEPS YOUR NAME IN FRONT OF THE EMPLOYER AND
IT HELPS IMPROVE YOUR IMAGE. IF YOU DID NOT LEAVE A RESUME WITH THE INTER.
VIEWER , ENCLOSE ONE WITH YOUR NOTE.

AN EXAMPLE OF A GOOD FOLLOW. UP THANK YOU NOTE FOLLOWS:

                  'hA.



                 A/tn                !,:z             /h tf





                                      t/.D




       K5                US-                             a..
                                   4IlJ
                                             . 4' 

                                                      ,,IP
            a.                                          WaA
                         tL




FOLLOW-UP BY TELEPHONE     IF YOU HAVEN'T RECEIVED A JOB OFFER FROM THE
INTERVIEW AND YOU ARE STILL INTERESTED IN THE JOB, CALL THE INTERVIEWER TO
REMIND HIM OR HER OF YOUR CONTINUED INTEREST. THIS CALL SHOULD BE MADE
WITHIN ONE WEEK OF THE INTERVIEW. THIS CALL WILL ALSO DETERMINE IF A DECISION
ON HIRING HAS BEEN MADE. IF NO DECISION HAS BEEN MADE, YOU HAVE ONE MORE
CHANCE TO SELL YOURSELF.

EMPLOYERS ARE LOOKING FOR INTERESTED AND MOTIVATED PEOPLE. MANY PEOPLE

HAVE BEEN TOLD THAT THE MAIN REASON THEY WERE HIRED WAS BECAUSE OF THEIR
ENTHUSIASM , INTEREST , AND PERSISTENCE.
                                                ".


                                 THE JOB SEEKER


MODULE XI . ON THE JOB

CONGRA TUI.A TIONS!
YOU LANDED THAT JOB. YOU
NOW HAVE  TH. OPPORTUNITY
TO PROVE YOUR WORTH ON
THE JOB.
The employer has taken a chance in
hiring you.  By doing your best, you
show the employer that they made the
right decision in hiring you. They
depending on you now.

Everyone who starts a new job will agree that the first day is the most diffi­
cult. At the end of the first day, many new employees are ready to         Therequit.
is just so much to learn.

Rememer , everyone goes through this ordeaL Don ' t be afraid to ask questions
and seek advice. The veteran workers exect it. After all, they also                exer­
ienced the pressures of the first day.


Time Management              Most full-time jobs will require   nie hours of your time each
work day excluding traveL Therefore, you will need to               chane your schedule to
mae efficient use of your tim.
With some planning, you should still be able to work and get everything done at

home if you follow these hints: . Keep a             ruing list
                                                          of all the things that
need to be done.  . Comine  tasks  whenever  possible.   .  Use your lunch hour to
handle any personal business you have.     Mae   greater  use  of the telephone by
 Letting your fingers do the walking.      Ask the  help   of other  famly members
(children
need som
                lea
                by helping out).
                ttm for
                   yourself just
                                  .
                                 to
                                     Lastly,
                                    keep
                                             plan
                                          going.
                                                   some        for ttm
                                                                    relaxation. You


Dav Care   If you have children who aren t 014 enugh t01cae fo.. themselves and
there is no familymeer    who can. watch theI whle yo. ra          a good baby­
sitter is critical.  You can t give your full attention to your new job if you
are concerned about your children s care. The best way to provide this care is
to have a friend, neighbor, or relative, someone you trut, watch your children.
Your worker can help you find a good babysitter if you need help.

 Keeping Your Job   More workers lose their jobs because they have failed to
 adjust and for personal reasons than to a lack of skills. Work adjustment means
  fitting in.   Workers who can t get along wittr others' , '1:A :ake advice or
 suggestions, don t follow the rules, are often late or' absent, spend too muh

 DSS Publication 525-11 (5/82)
 time on personal matters, won t take responsibility or assume new duties, and

 can t adjust to change are likely to lose their jobs.
 Workers who are aware of the total demands of the job, the importance of their

 role in the organization, and who always do their best are valuable workers.

 Valued workers keep their jobs and get promoted. Good employees are always

 in demand.


 Changing Jobs   Other companies are always on the lookout for the person who
 is working and doing an outstanding job.


 People change jobs for higher pay, better working conditions, promotions,

 shorter travel tim  and for jobs in line with their goals.

 When you re working, job contacts and opportunities are exanded. Because
 you already have a job, you can seek a better job without feeling the
 pressures you felt while unemployed. You can now pick and choose a job that
 best meets your needs and long-range goals.

 Never quit your present job until you have a firm job offer from the new

 employer. How you leave your present job is important. Think about the kind
 of reference your present employer will make if you " tell the boss off" and
 quit. It  may not make a difference on your job, if you already have it, but
 it will when you apply for your next. job.

 The best way to leave a job is to tell your present employer that you will be
 leaving and work out a date for your last day of work. Most emloyers expect
 at least a twweek               notice.
                              Always leave in such a way that your employer is
 sorry to see you go and would " hire you back in a minute.  At some time in
 the future you may want to com back.




The Lat Word
This material     va prepared to help you find a job.                                    The material in the modules
was draw fr08 exerts in the job- finding                               field.
Along with this material, a                comtmnt on your part is 88sential in order to find
a job. The     material ca              t do it alone. Be sincere, felow the step., aD you
     get that job.




            The Oertment Of Soia 581C             wHI not dl8rlmlnate    qan. my Inclwk        or.- tI..

            Of r8Ce. sex .   rel",on, 198, nltlona orttln. cOlor,   mlrttal natul,   hlnclc, or DOItIc tIl.,.

